Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




HEALTH EDUCATION ASSISTANCE
   LOAN DEFAULTERS WITH
 INCOME IN FISCAL YEAR 2008




                    Daniel R. Levinson
                     Inspector General

                      February 2010
                     OEI-03-09-00100
       E X E C U T I V E                                 S U M M A R Y


                              OBJECTIVE
                              To determine whether individuals who have defaulted on their Health
                              Education Assistance Loans (HEAL) received income in fiscal year
                              (FY) 2008 that might enable them to make payments on these loans.


                              BACKGROUND
                              The HEAL program began in 1978 to help eligible graduate students in
                              health professions finance their education. Although no new HEAL
                              loans have been issued since September 30, 1998, the Health Resources
                              and Services Administration (HRSA) in the Department of Health &
                              Human Services (HHS) continues to oversee prior loans made by
                              participating lenders, such as banks and credit unions. HHS’s Program
                              Support Center (PSC) provides HRSA with debt management services,
                              which include many of the activities involved in trying to obtain
                              payments when individuals default on HEAL loans. Through the HEAL
                              program, 157,388 borrowers received $4 billion in HEAL loans.

                              HHS reimburses lenders for any HEAL loans that are not repaid
                              because of borrowers’ default, bankruptcy, death, or total and
                              permanent disability. After a lender has tried to obtain repayment from
                              a HEAL borrower and failed, it requests payment from HRSA. HRSA
                              approves the claim for payment and then PSC initiates an extensive
                              loan collection process. If, at the end of this process, the borrower does
                              not enter into a repayment agreement, the Department of Justice (DOJ)
                              requests that PSC refer the case to the HHS Office of Inspector General
                              (OIG). OIG then notifies the borrower that he or she is being excluded
                              from participation in Federal health care programs.

                              When OIG excludes a HEAL borrower, PSC includes the individual on
                              the defaulted borrowers list. PSC provides this list to HRSA to publish
                              on its Web site (http://www.defaulteddocs.dhhs.gov) at the next
                              quarterly update. HEAL defaulters are removed from this list when
                              their debt is repaid or they enter into settlement agreements with DOJ
                              and OIG to repay their debt. HEAL defaulters may make loan
                              payments, but unless they enter into settlement agreements, they are
                              still considered to be in default and remain on the defaulted borrowers
                              list.

                              Almost all HEAL borrowers have repaid or are in the process of
                              repaying their loans through their original or refinancing agreements.
                              However, 1,065 HEAL borrowers on the defaulted borrowers list owed

O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   i
E X E C U T I V E                         S U M M A R Y


                               $147 million in principal and interest as of November 1, 2008. Because
                               of the accrual and compounding of interest, the amounts some
                               defaulters owed far exceeded their original loan amounts.

                               The State Identification Inquiry (SIDI) is an application States use to
                               obtain information on individuals’ wages and unemployment benefits
                               nationwide. Using data obtained from SIDI, we determined whether
                               any of the 1,065 defaulters on the defaulted borrowers list earned
                               income in FY 2008. We also obtained from PSC a file containing
                               information on any of the 1,065 HEAL defaulters who had made
                               payments toward their loans but did not have settlement agreements.
                               We used this file to determine whether any of the HEAL defaulters with
                               income in FY 2008 had made loan payments during that time.


                               FINDINGS
                               Of the 486 HEAL defaulters who earned income in FY 2008,
                               312 made no payments on their loans during that time. Based on
                               wages identified through SIDI, 486 of the 1,065 HEAL defaulters
                               earned income in FY 2008. The remaining 579 defaulters did not have
                               income information identified in SIDI. Of the 486 defaulters, 312 made
                               no loan payments during that time. These 312 HEAL defaulters owed
                               $47.5 million on their loans and earned $13.4 million in FY 2008. The
                               median income for these defaulters was $34,387. Ninety-eight
                               defaulters (31 percent) earned $50,000 or more. Four of these
                               defaulters earned $200,000 or more. The 98 defaulters were responsible
                               for nearly $15 million (31 percent) of the $47.5 million owed.
                               Of the 174 HEAL defaulters who earned income and made loan
                               payments in FY 2008, nearly half paid less than $2,000 each during
                               that time. A total of 174 HEAL defaulters earned income and made one
                               or more loan payments in FY 2008. The median income for these
                               defaulters was $47,331. However, 78 (45 percent) paid less than $2,000
                               each and, of these, 24 paid less than $500 each toward their loans in
                               FY 2008. These 174 HEAL defaulters owed $22.5 million on their loans
                               and earned $9.6 million in FY 2008. The amounts these defaulters paid
                               totaled $659,135 in FY 2008, or just 3 percent of their total loan balance
                               during that time.


                               RECOMMENDATIONS
                               The HEAL program was established to help students in the health
                               professions finance their education. Almost all HEAL borrowers have

 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   ii
E X E C U T I V E                         S U M M A R Y



                               repaid or are in the process of repaying their loans; however, as of
                               November 2008, a small number of borrowers had defaulted on their
                               loans.

                               Our review found that 486 of the 1,065 HEAL defaulters on the
                               defaulted borrowers list had earned income in FY 2008. A portion of
                               these defaulters earned income that seemingly would enable them to
                               make payments on their outstanding loans; however, these defaulters
                               made minimal or no such payments.

                               We recommend that HRSA work with PSC to:
                               Use the information we provide on these HEAL defaulters to assist
                               with HEAL collection efforts.
                               Consider obtaining wage data from Federal or State sources to
                               enable HRSA and PSC to target future collection efforts on defaulters
                               with income.


                               AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                               RESPONSE
                               HRSA concurred with our recommendations and stated that upon
                               receipt of the data from OIG, PSC will review and share the information
                               with DOJ. Additionally, HRSA stated that consideration will be given
                               to obtaining wage data on health professionals who have defaulted on
                               their financial obligation. We have provided PSC with detailed
                               information on the 486 HEAL defaulters who earned income in
                               FY 2008.




 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   iii
   T A B L E            O F            C O N T E N T S



         EXECUTIVE SUMMARY..................................i



         INTRODUCTION ......................................... 1



         FINDINGS ............................................... 6

                   Of the 486 defaulters who earned income in FY 2008, 312 made
                   no payments on their loans during that time . . . . . . . . . . . . . . . . . 6

                   Of the 174 defaulters who earned income and made loan
                   payments in FY 2008, nearly half paid less than $2,000 each
                   during that time . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



         RECOMMENDATIONS ................................... 9
                   Agency Comments and Office of Inspector General Response . . . . 9


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                   A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
I N T R O D U C T I O N
        I N T R O D U C T I O N


                               OBJECTIVE
                               To determine whether individuals who have defaulted on their Health
                               Education Assistance Loans (HEAL) received income in fiscal year
                               (FY) 2008 that might enable them to make payments on these loans.


                               BACKGROUND
                               The HEAL program began in 1978 to help eligible graduate students in
                               health professions finance their education. Although no new HEAL
                               loans have been issued since September 30, 1998, the Health Resources
                               and Services Administration (HRSA) in the Department of Health &
                               Human Services (HHS) continues to oversee prior loans made by
                               participating lenders, such as banks and credit unions.

                               Under the HEAL program, students of allopathic and osteopathic
                               medicine, dentistry, veterinary medicine, optometry, and podiatry were
                               allowed to borrow up to $80,000. Students of pharmacy, chiropractic
                               medicine, health administration, public health, allied health, and
                               clinical psychology were allowed to borrow up to $50,000. Through this
                               program, 157,388 borrowers received $4 billion in HEAL loans.

                               In recent years, several HEAL defaulters have been identified as
                               receiving income that would enable them to repay their loans. In
                               October 2008, a local Boston television station identified two HEAL
                               defaulters, with a total of approximately $600,000 in HEAL debt, as
                               practicing dentists. Another HEAL defaulter was indicted for making
                               false statements to conceal his income and ability to repay his HEAL
                               loan. In October 2007, he was sentenced to 1 year probation and
                               ordered to pay $158,469 in restitution to the Government.

                               Interest accrues on HEAL loans from the dates of disbursement until
                               the dates the loans are paid in full . 1 Interest can be compounded (i.e.,
                               added to the principal) as often as every 6 or 12 months depending on
                               the date of the original loan. HEAL borrowers have as long as 25 years
                               to repay their original loans. If HEAL borrowers refinanced their loans,
                               they have 25 years from the refinance dates to repay the new loans. 2




                                 1 HRSA, Student Financial Aid Guidelines, October 2000. Available online at
                               http://www.bhpr.hrsa.gov/dsa/sfag/PDFs/6healcor.pdf. Accessed on November 4, 2008.
                                 2 The HEAL refinancing program ended on September 30, 2004.




 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008      1
   I N T R O D U C T I O N



                              Almost all HEAL borrowers have repaid or are in the process of
                              repaying their loans through their original or refinancing agreements.
                              As of September 2008, there were 31,785 borrowers in the process of
                              repaying lenders $980 million in principal and interest.

                              However, 1,065 HEAL borrowers were on the defaulted borrowers list
                              as of November 1, 2008. These 1,065 defaulters owed $147 million in
                              principal and interest. The amounts owed by individual defaulters
                              ranged from $453 to $759,984. The 1,065 HEAL defaulters owed a
                              median of $106,146. Because of the accrual and compounding of
                              interest, the amounts some defaulters owed far exceeded their original
                              loan amounts.
                              Default Process
                              HHS reimburses lenders for loans that are not repaid because of
                              borrowers’ default, bankruptcy, death, or total and permanent
                              disability. HHS’s Program Support Center (PSC) provides HRSA with
                              debt management services, which include many of the activities
                              involved in trying to obtain payments when individuals default on
                              HEAL loans. After a lender has tried to obtain repayment from a HEAL
                              borrower and failed, it requests payment from HRSA. The claims for
                              payment are approved by HRSA, and PSC sends the funds to the lender.
                              PSC then initiates an extensive loan collection process. PSC notifies the
                              borrower that the Government holds the promissory note and that
                              payment is due. If repayment does not begin, the account is sent to a
                              collection agency. If the collection agency is unable to collect within 6
                              months, the account is returned to PSC and a final demand letter is
                              sent to the borrower to begin repayment. PSC sends the borrower’s
                              information to the Treasury Offset Program, which offsets payments
                              made by Federal agencies, such as the Internal Revenue Service. PSC
                              then applies these offsets to the borrower’s debt. 3
                              If the borrower does not begin repayment, PSC sends the account to the
                              Department of Justice (DOJ) to obtain and/or enforce a judgment
                              against the borrower. If the borrower does not comply with DOJ
                              demands, DOJ requests PSC to send a 60-day warning letter to the
                              borrower. This notifies the borrower that he or she must enter into a
                              repayment agreement with DOJ or risk exclusion from all Federal



                                3 For example, payments from Federal income tax refunds can be offset, which means
                              that the tax refund would be withheld and applied to the defaulter’s debt instead.



O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008        2
I N T R O D U C T I O N


                               health care programs. 4 If the borrower does not enter into a repayment
                               agreement, DOJ requests that PSC refer the case to the Office of
                               Inspector General (OIG). OIG then notifies the defaulter that he or she
                               is being excluded from participation in Federal health care programs. 5
                               Defaulted Borrowers List
                               HRSA is required by law to publish a quarterly list of HEAL borrowers
                               who have been excluded by OIG. 6 Information concerning each
                               defaulter, including name, State, amount due, school, and field of study,
                               is published on this list. When OIG excludes a HEAL defaulter, it sends
                               a copy of the exclusion letter to PSC. PSC then includes the individual
                               on the defaulted borrowers list. PSC provides this list to HRSA to
                               publish on its Web site (http://www.defaulteddocs.dhhs.gov) at the next
                               quarterly update. HEAL defaulters are removed from the defaulted
                               borrowers list when their debt is repaid or they enter into settlement
                               agreements with DOJ and OIG to repay their debt. The defaulted
                               borrowers’ list changes as defaulters are removed and as new defaulters
                               are added.
                               HEAL Payment Information
                               HEAL defaulters may make payments on their loans; however, they still
                               remain on the defaulted borrowers list until they enter into settlement
                               agreements to repay their loans. According to PSC, HEAL defaulters
                               may not have an incentive to enter into settlement agreements if the
                               consequences of exclusion from Federal health programs do not affect
                               them.


                               METHODOLOGY
                               Data Collection
                               HEAL defaulter information. We obtained from PSC an electronic file
                               containing information about the 1,065 individuals on the HEAL
                               defaulted borrowers list as of the November 2008 quarterly update.


                                 4 The Social Security Act, § 1892, also provides the borrower with the opportunity to cure
                               the default using an offset agreement, 42 U.S.C. § 1395ccc.
                                  5 OIG has the authority to exclude these defaulters under Social Security Act,
                               § 1128 (b)(14), 42 U.S.C. § 1320a-7(b)(14). To the extent the borrower is offered an offset
                               agreement and refuses to enter into it, breaches the agreement, or does not provide
                               sufficient services to maintain the offset collection, OIG must also exclude the borrower
                               from participation in Medicare under the Social Security Act, § 1892(a)(2)(C) or (a)(3)(B),
                               42 U.S.C. § 1395ccc(a)(2)(C) or (a)(3)(B).
                                 6 Public Health Service Act, § 709(c)(1), 42 U.S.C. § 292h(c)(1).




 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008               3
I N T R O D U C T I O N



                               This file included each individual’s name, address, Social Security
                               number, date of default, and default amount. We use the term “HEAL
                               defaulter” throughout this report to refer to individuals who are on the
                               defaulted borrowers list.
                               HEAL payment data. We obtained from PSC a file containing information on
                               any of the 1,065 HEAL defaulters who had made payments toward their
                               loans but did not have settlement agreements. This file included each
                               individual’s name, Social Security number, date of payment, and payment
                               amount. We received the payment file in January 2009.
                               State Identification Inquiry. The State Identification Inquiry (SIDI) is an
                               application the Department of Labor has made available to State
                               unemployment insurance agencies so that they can obtain information on
                               individuals’ wages and unemployment benefits nationwide. 7 With the
                               exception of Hawaii, all States and the District of Columbia contribute
                               data to and have agreements enabling them to access the information in
                               SIDI.
                               Data Analysis
                               We used data obtained from SIDI to identify HEAL defaulters’
                               employers and income for FY 2008. The Social Security numbers of the
                               1,065 defaulters were entered into SIDI to obtain employer names and
                               amounts earned per quarter. Based on the SIDI search results, we
                               quantified the number of HEAL defaulters who earned income in
                               FY 2008 and the amount they earned. The SIDI search was performed
                               in February 2009.

                               We also determined whether any of the HEAL defaulters with income in
                               FY 2008 had made loan payments during that time. To do this, we
                               matched the payments data received from PSC with those defaulters
                               identified in SIDI as having income for FY 2008. We quantified the
                               number of HEAL defaulters who had made payments in FY 2008 and
                               the amount of those payments.

                               For defaulters who earned $200,000 or more in FY 2008, we reviewed
                               the employer names identified through SIDI to determine whether
                               these defaulters earned income in the health care field.
                               Limitations. Our analysis was limited to those defaulters who had FY 2008
                               income information identified in SIDI. There were 579 of 1,065 defaulters

                                 7 Wages on which employers do not pay unemployment insurance tax (e.g., payment to
                               independent contractors) are not contained in SIDI.



 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008        4
I N T R O D U C T I O N


                               on the defaulted borrowers list who did not have FY 2008 income
                               information identified in SIDI. We did not independently verify
                               information obtained through SIDI. Since the defaulted borrowers list is
                               updated quarterly, some individuals identified on the November 2008 list
                               may have since been removed.
                               Standards
                               This study was conducted in accordance with the “Quality Standards for
                               Inspections” approved by the Council of the Inspectors General on
                               Integrity and Efficiency.




 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   5
F FI IN ND DI IN NG GS
          F I N D I N G S

       Of the 486 HEAL defaulters who earned                                 Based on wages identified through
    income in FY 2008, 312 made no payments                                  SIDI, 486 of the 1,065 HEAL
                on their loans during that time                              defaulters (46 percent) who were in
                                                                             default as of November 2008
                                         earned income in FY 2008. The remaining 579 defaulters did not have
                                         income information identified in SIDI. The 486 HEAL defaulters owed
                                         $70 million on their loans and earned $23 million in FY 2008.
                                         Of the 486 HEAL defaulters who earned income in FY 2008, 312 made
                                         no loan payments during that time. These 312 HEAL defaulters owed
                                         $47.5 million on their loans and earned $13.4 million in FY 2008. The
                                         median income for these defaulters was $34,387. Ninety-eight of the
                                         312 defaulters (31 percent) earned $50,000 or more. These
                                         98 defaulters were responsible for nearly $15 million (31 percent) of
                                         the $47.5 million owed.

                                         Table 1 shows the income ranges of the 312 HEAL defaulters who
                                         earned income but did not make any loan payments in FY 2008 along
                                         with the amounts they owed.

                       Table 1. Income Earned and Amount Owed by 312 HEAL Defaulters
                       Who Did Not Make Any Loan Payments in FY 2008
                                                                     Amount Percentage
                                          Number of Percentage of
                       FY 2008 Income                                Owed in    of Total
                                           Defaulters  Defaulters
                                                                     Millions  Balance
                       Under $30,000                                   143                   46%                    $21.9    46%

                       $30,000–$49,999                                  71                   23%                    $10.8    23%

                       $50,000–$74,999                                  47                   15%                      $6.1   13%

                       $75,000–$99,999                                  25                    8%                      $3.8    8%

                       $100,000–$199,999                                22                    7%                      $4.2    9%

                       $200,000 or more                                   4                   1%                      $0.7    1%

                                 Total                                 312                 100%                     $47.5    100%
                     Source: OIG analysis of SIDI data.




                                         As Table 1 shows, four defaulters who each earned over $200,000 in
                                         FY 2008 made no payments toward their HEAL loans in that time. One
                                         of these defaulters earned $381,339 while employed in a dental practice
                                         in FY 2008. Another defaulter earned $258,424 through a dental
                                         practice as well.

   O E I - 0 3 - 0 9 - 0 010 0           HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008        6
    F I        N D I              N G     S




Of the 174 HEAL defaulters who earned income                                There were 174 HEAL defaulters
                                                                            who earned income in FY 2008 and
and made loan payments in FY 2008, nearly half
                                                                            made at least one loan payment
                    paid less than $2,000 each
                                                                            during that time. HEAL defaulters
                               during that time                             may make loan payments at any
                                      time, but they are still considered to be in default and remain on the
                                      defaulted borrowers list until they enter into settlement agreements.

                                      These 174 HEAL defaulters owed $22.5 million on their loans and
                                      earned $9.6 million in FY 2008. The amount these defaulters paid
                                      totaled $659,135 in FY 2008, or just 3 percent of their total loan balance
                                      during that time.

                                      Table 2 shows the income ranges, the total amounts paid, and the
                                      amounts owed for the 174 HEAL defaulters who made loan payments in
                                      FY 2008.

                            Table 2. Income Earned, Total Amounts Paid, and Amounts Owed by
                            174 HEAL Defaulters Who Made Loan Payments in FY 2008
                                                                Total      Amount   Percentage
                                                Number of
                            FY 2008 Income                    Amount       Owed in   of Balance
                                                Defaulters
                                                                 Paid     Millions1     Paid Off
                            Under $30,000                              53         $187,248                        $7.8          2%

                            $30,000–$49,999                            39         $119,090                        $4.1          3%

                            $50,000–$74,999                            44         $158,509                        $5.6          3%

                            $75,000–$99,999                            21           $76,571                       $2.5          3%

                            $100,000–$199,999                          13           $95,583                       $2.2          4%

                            $200,000 or more                            4           $22,134                       $0.4          6%

                                  Total                              174          $659,135                      $22.5           3%
                        1
                         The amounts owed in this table add up to $22.6 million instead of $22.5 million because of rounding.
                        Source: OIG analysis of PSC payments data.


                                      The median income for defaulters who made loan payments was
                                      $47,331. However, 78 (45 percent) paid less than $2,000 each and, of
                                      these, 24 paid less than $500 each toward their loans in FY 2008.

                                      Table 3 shows the range of payments for the 174 HEAL defaulters who
                                      made payments in FY 2008.




    O E I - 0 3 - 0 9 - 0 010 0       HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008            7
   F I         N D I          N G       S




                                  Table 3. Range of Payments for 174 HEAL Defaulters Who Made
                                  Loan Payments in Fiscal Year 2008
                                                                    Number of       Percentage of
                                  FY 2008 Loan Payments
                                                                    Defaulters         Defaulters
                                  Under $500                                                            24             14%

                                  $500–$999                                                             18             10%

                                  $1,000–$1,999                                                         36             21%

                                  $2,000–$2,999                                                         27             16%

                                  $3,000–$4,999                                                         28             16%

                                  5,000–$9,999                                                          29             17%

                                  $10,000 or more                                                       12              7%

                                     Total                                                             174           100% 1
                              1
                               Percentages in this table do not total 100 percent because of rounding.
                              Source: OIG analysis of PSC payments data.



                                   Four HEAL defaulters who earned over $200,000 in FY 2008 made loan
                                   payments during that time. One of the defaulters who earned over
                                   $200,000 paid just $227 in FY 2008; the remaining three defaulters paid
                                   between $5,238 and $9,700. Two of these defaulters, who earned
                                   $274,708 and $207,846 respectively, earned income through dental
                                   practices.




O E I - 0 3 - 0 9 - 0 010 0        HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008      8
       R E C O M M E N D A T I O N S



                              The HEAL program was established to help students in the health
                              professions finance their education. Almost all HEAL borrowers have
                              repaid or are in the process of repaying their loans; however, as of
                              November 2008, a small number of borrowers had defaulted on their
                              loans.

                              Our review found that 486 of the 1,065 HEAL defaulters on the
                              defaulted borrowers list had earned income in FY 2008. A portion of
                              these defaulters earned income that seemingly would enable them to
                              make payments on their outstanding loans; however, these defaulters
                              made minimal or no such payments.

                              We will share the results of our review with HRSA and PSC staff to
                              assist them in their HEAL collection efforts. HRSA can share this
                              information with DOJ to enhance its debt collection efforts for those
                              defaulters.

                              We recommend that HRSA work with PSC to:

                              Use the information we provide on these HEAL defaulters to assist
                              with HEAL collection efforts

                              HRSA and PSC staff may want to focus their efforts on those HEAL
                              defaulters we identified as having the highest income in FY 2008.

                              Consider obtaining wage data from Federal or State sources to enable
                              HRSA and PSC to target future collection efforts on defaulters with
                              income


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              HRSA concurred with our recommendations and stated that upon
                              receipt of the data from OIG, PSC will review and share the information
                              with DOJ to assist DOJ with its collection and litigation efforts. PSC
                              will initially focus its efforts on individuals who had income greater
                              than $75,000. Additionally, HRSA stated that consideration will be
                              given to obtaining wage data on health professionals who have
                              defaulted on their financial obligation. We have provided PSC with
                              detailed information on the 486 HEAL defaulters who earned income in
                              FY 2008. For the full text of HRSA’s comments, see Appendix A.




O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   9
       A P PEN 0                                  x                 A


      Agency Comments



        /"""'~~      .•r,      DEPARTMENT OF HEALTH &. HUMAN SERVICES
        \         ~E
                                                                                                        Health Resources and Services
                                                                                                        Administration
         "·~/·:":It"...~o{}
                                                                                                        Rockville, MD 20857



                                                                        JAN 1 2 2010




                            TO:           Inspector General

                            FROM:         Administrator

                            SUBJECT:      OIG Draft Report: "Health Education Assistance Loan Defaulters With Income in
                                          Fiscal Year 2008" (OEI-03-09-00100)

                            This is in response to the OIG's request for comments on the draft report, "Health Education
                            Assistance Loan Defaulters With Income in Fiscal Year 2008" (OEI-03-09-001 00). Attached are
                            the Health Resources and Services Administration's (HRSA) comments. If you have any
                            questions, please contact Patricia A. Reese in HRSA's Office of Federal Assistance Management
                            at (301) 443-0270.

                                                                                   /S/
                                                                        Mary KWakefield, Ph.D., R.N.

                            Attachment




oEI-03 -0 9-00 1 00               HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME IN FISCAL YEAR 2008                     10
A P P           E N D I X              ~       A




 O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   11
       A C K N O W L E D G M E N T S



                              This report was prepared under the direction of Robert A. Vito, Regional
                              Inspector General for Evaluation and Inspections in the Philadelphia
                              regional office, and Linda M. Ragone, Deputy Regional Inspector
                              General.

                              Tara Bernabe served as the team leader for this study. Other principal
                              Office of Evaluation and Inspections staff from the Philadelphia
                              regional office who contributed to the report include Nancy J.
                              Molyneaux; central office staff who contributed include Talisha Searcy.




O E I - 0 3 - 0 9 - 0 010 0   HEALTH EDUCATION ASSISTANCE LOAN DEFAULTERS WITH INCOME   IN   FISCAL YEAR 2008   12
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
